Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      Medical Insurance For
Dependents Receiving Child Support




                   JUNE GIBBS BROWN
                    Inspector General

                        JUNE 2000
                      OEI-07-97-00500
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG) mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Kansas City Office prepared this report under the direction of James H. Wolf, Regional
Inspector General and Brian Pattison, Deputy Regional Inspector General. Principal OEI staff
included:

REGION                                                  HEADQUARTERS

Ray Balandron, Project Leader                           Linda Hall, Program Specialist

Hugh Owens, Program Analyst                             Susan Burbach, Program Specialist

Perry Seaton, Program Analyst                           Barbara Tedesco, Mathematical Statistician

Dennis Tharp, Program Analyst                           Scott Horning, Program Analyst

Michael Barrett, Program Analyst
Mike Craig, Program Analyst

     To obtain copies of this report, please call the Kansas City Regional Office at (816) 426-3697.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                      EXECUTIVE                        SUMMARY

PURPOSE
         To determine if State Child Support Enforcement (CSE) agencies have made progress in
         the detection of available dependent health insurance.

BACKGROUND
         Between 1980 and 1998, numerous legislative and regulatory changes have been made
         governing identification and enforcement of medical support as it relates to court or
         administrative child support orders. Some of the changes that have taken place include:
         requiring child support agencies to collect medical support information; requiring that a
         health care provision is in all child support orders; and ensuring that the noncustodial
         parent obtain medical insurance if available at a reasonable cost. This means, in some
         cases, that the child support agency must send notice to an employer to enroll the child in
         its health care plan, and notify the State Medicaid agency of the existence and specifics of
         medical coverage. Also, there is currently a National Medical Support Notice being
         developed that will be used by States as a withholding mechanism to enforce the health
         care coverage provisions in the child support order.

         This inspection is an update on two previous Office of Evaluation and Inspections’ studies
         entitled, “Child Support Enforcement/Absent Parent Medical Liability” and “Coordination
         of Third Party Liability Information Between Child Support Enforcement and Medicaid.”
         In this study we sampled 360 court ordered cases from nine States covering the period of
         July-September 1997 and projected our results nationally. We reviewed court orders and
         case files, and interviewed various State CSE, Medicaid, employer, and insurance
         company staff to determine availability of dependent health insurance and any improper
         payments made by the Medicaid program.

FINDINGS
Considerable Progress Has Been Made in the Identification and Enforcement of
Medical Support

         We estimated that 93 percent of the child support orders in our study included a provision
         requiring medical coverage for the dependent children. This compares to 24 percent in
         our previous study. Since our last study, we also determined that potential savings
         dropped dramatically. Previously we found 48 percent of the cases reviewed had
         undetected health insurance available to the dependents with projected potential savings to
         Medicaid of over $32 million. Currently, we found 30 percent of the child support cases
         with undetected health insurance available. We estimated potential fee-for-service savings
         of just under $3 million and Medicaid managed care premiums of $2.3 million made on
         behalf of children whose noncustodial parents had employer based insurance, but had not
         enrolled their children. This projected annual loss for all States of

Medical Insurance Payments for CSE                 1                                 OEI-07-97-00500
         $5.2 million is a significant reduction when compared to the loss of $32 million Medicaid
         paid out in fee-for-service payments 10 years ago.

However, Weaknesses Still Exist in the Detection of Health Insurance Availability
and Enrolling Dependents

         We found child support agencies deficient in pursuing health insurance availability in
         126 cases out of 247 that had noncustodial employer information in the file. We contacted
         the employers for 115 of these cases and determined that dependent health care coverage
         was available to the noncustodial parents in 36 percent of the cases. In this regard, child
         support staff indicated that they do make limited efforts to gather employment and health
         insurance information. However, they strongly believe that their primary efforts should be
         spent in retrieving cash support payments.

Managed Care Premiums Present a New Challenge in the Enforcement of Medical
Support for Child Support Children

         With managed care becoming a major means of coverage for Medicaid-eligible children’s
         medical care, new issues have arisen regarding the ability of States to coordinate their
         managed care benefits with the employer based insurance of the noncustodial parents.
         One possibility would be to collect either all or part of the State Medicaid monthly
         premiums from the noncustodial parent. However, it was beyond the scope of this study
         to determine the processes needed to do so. We understand that there are various types of
         contracts established between the State Medicaid agencies and the different managed care
         organizations. These contracts include such requirements as disenrolling the children from
         the managed care plan when private insurance is available, keeping the children enrolled in
         Medicaid managed care regardless of the existence of private insurance, or reducing the
         premium by a specific amount when there is private insurance available. We believe to
         fully address this issue, additional study is required.

RECOMMENDATIONS
The Administration for Children and Families Should Ensure That State Child
Support Agencies Comply with Current Regulations Requiring Them to Fully
Enforce Medical Support

         The Administration for Children and Families (ACF) should ensure that State child
         support agencies are persistent in following through to determine if health insurance is
         available to the noncustodial parent and his/her dependents. This should include cases
         where the child is enrolled in Medicaid managed care programs or could be enrolled in an
         employer based managed care program. However, these situations may require new
         approaches discussed in the next recommendation.




Medical Insurance Payments for CSE                2                                OEI-07-97-00500
The Administration for Children and Families, in Conjunction With The Health
Care Financing Administration, Should Examine Alternatives to Recover The
Costs of Managed Care Premiums From The Noncustodial Parents

         The ACF, in conjunction with the Health Care Financing Administration (HCFA), should
         examine alternatives to address the loss of State/Federal funds for children enrolled in
         Medicaid managed care. We realize there are various State practices regarding
         coordination of benefits whenever children are enrolled in a Medicaid managed care plan.
         Depending on the unique State practices, they could consider the option of requiring the
         noncustodial parent to enroll the child in private coverage or pay toward the Medicaid
         managed care coverage. The following could be considered.

                   <	       If insurance is available at a reasonable cost to a noncustodial parent but
                            he/she prefers not to enroll in it or to enroll himself/herself only and not the
                            children, he/she could have the option of paying the State Medicaid
                            managed care premium.

                   <	       If insurance is not available at a reasonable cost to a noncustodial parent
                            and there is no employer based health plan, he/she could have the option of
                            paying the State Medicaid managed care premium.

                   <	       If insurance is available at a reasonable cost to a noncustodial parent and
                            the parent and child are enrolled in it, the Medicaid managed care
                            coverage, unless discontinued, could be assessed as a secondary payer to
                            the noncustodial parent’s insurance.

         We realize that the actual implementation and administration of such a policy would entail
         addressing many factors such as cost-efficiency, identification and enforcement, billing and
         collection of the managed care premium, and need for legislative changes.

AGENCY COMMENTS
         In their comments, the Administration for Children and Families expressed their
         commitment to working with the Health Care Financing Administration and the States to
         improve access to medical coverage for children. In addition, they described various
         efforts and initiatives being undertaken that will further strengthen medical child support.

         The ACF also noted that the Medical Child Support Working Group will be issuing
         recommendations to improve medical support and coordination between child support
         agencies and Medicaid. We are aware of the working group’s upcoming report to
         Congress and have provided information to them on our prior and present efforts on these
         topics.

         While recommendations in the draft report were not directed to HCFA, they did provide
         comments. The HCFA indicated that they will continue to work with ACF to assure every
         effort is made to identify parents who can provide or contribute to the coverage of


Medical Insurance Payments for CSE                     3                                  OEI-07-97-00500
         health insurance for their children and to see that Medicaid dollars are spent
         appropriately.

         Where appropriate, we made revisions to the report to address various technical
         comments offered by ACF and HCFA. The full text of their comments are included in
         Appendix E.




Medical Insurance Payments for CSE                 4                                 OEI-07-97-00500
                            TABLE                        OF             CONTENTS

                                                                                                                             PAGE


         EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


         INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


         FINDINGS


                   Child support agencies have progressed                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


                   Weaknesses still exist . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


                   Managed care presents a new challenge . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


         RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


         APPENDICES


                   A: Child support orders with medical support . . . . . . . . . . . . . . . . . . . . . . . . . . 16


                   B: Health insurance availability . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


                   C: Medicaid payments made when health insurance exists . . . . . . . . . . . . . . . . 18


                   D: Weighted estimates for data collected during study . . . . . . . . . . . . . . . . . . . 19


                   E: Agency comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


                             ACF comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


                             HCFA comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26





Medical Insurance Payments for CSE                              5                                              OEI-07-97-00500
                                     INTRODUCTION

PURPOSE
         To determine if State Child Support Enforcement (CSE) agencies have made progress in
         the detection of available dependent health insurance.

BACKGROUND
CSE Legislation and Regulations

         For some time, policy makers have expressed concern about the responsibility of
         noncustodial parents to provide medical support for their dependent children. Various
         laws have been passed requiring court ordered decrees to include medical support by the
         noncustodial parent, and establishing mechanisms for their enforcement.

         The Social Security Act requires that the Medicaid program pay for beneficiary medical
         services secondary to other health insurance that may exist for beneficiaries, e.g., private
         health insurance or an employer group health plan. This provision also pertains to
         dependents of noncustodial parents for whom a court or administrative order exists that
         requires them to provide medical insurance.

         Federal regulations published in February 1980 implemented Section 1912 of Title XIX of
         the Social Security Act. These regulations promoted cooperative agreements between
         State child support and Medicaid agencies to obtain information about medical insurance
         where it is available in an effort to reduce or eliminate Medicaid payments. However,
         under the Child Support Enforcement provisions of Title IV D, States received a higher
         percentage of Federal funding for collections of child support payments than for
         enforcement of medical support under the Medicaid program. This could provide an
         incentive for States to use available resources to collect child support payments since this
         effort produces a higher rate of return than the identification of noncustodial parents’
         private health insurance.

         Congress passed the 1984 Child Support Enforcement amendments (P.L. 98-378), adding
         Section 452(f), to the Social Security Act. This section required the Secretary of Health
         and Human Services (HHS) to issue regulations requiring State child support agencies to
         gather specified medical support information in all child support cases involving Medicaid-
         eligible children in the Aid to Families with Dependent Children program, and to take
         steps to enforce medical support ordered by the court.

         In response to these amendments, the Secretary issued Federal regulations in October
         1985 requiring State Child Support Enforcement agencies to collect 1) the policy name(s)
         and number(s) of any health insurance available to the noncustodial parent, and 2) the
         names of persons covered if the noncustodial parent has available health insurance. Child
         support agencies are also required to submit medical support information obtained to the


Medical Insurance Payments for CSE                 6                                  OEI-07-97-00500
         State Medicaid agency for use in coordinating benefits. The 1985 regulations allowed for
         manual or automated exchange of third-party liability information from State child support
         agencies to Medicaid, but required them to provide it as specified in the State Plan, in a
         timely manner, and by the most efficient and cost-effective means available. They are also
         required to inform the Medicaid agency of any new or modified orders that include
         medical support.

         In addition, these regulations require State Child Support Enforcement agencies to seek
         the inclusion of medical support in all court and administrative orders, whether or not
         health insurance is available to the noncustodial parent at a “reasonable cost” at the time
         the order is entered or modified. State child support agencies must also make every effort
         possible to ensure that the noncustodial parent obtains the required medical insurance, if it
         is available at a reasonable cost, and enrolls the children. The regulations define “health
         insurance to be reasonable in cost if it is employment-related or other group health
         insurance, regardless of service delivery mechanism.”

         Revised Federal regulations published in 1988 expanded these requirements to include
         modification of existing court or administrative orders for the sole purpose of obtaining
         medical support. This expansion required State child support agencies to:

            <	     develop written criteria to identify cases with a high potential for obtaining medical
                   support;

            <	     petition the court or administrative authority to modify support orders to include
                   medical support for targeted cases, even if they anticipate no other modification;
                   and

            <	     petition the court or administrative authority to include medical support in all child
                   support orders, even if health insurance coverage is unavailable at the time of the
                   order, thus enabling the child support agency to enforce it if coverage should
                   become available in the future without returning to court to obtain a new order.

         The Omnibus Budget Reconciliation Act of 1993 (OBRA), P.L. 103-66, contained
         provisions intended to remove some of the impediments to State child support agencies’
         attempts to secure and enforce medical coverage. OBRA contained many improvements
         that facilitated obtaining and enforcing medial coverage, including: prohibiting
         discriminatory health care coverage practices; creating “qualified medical child support
         orders” to obtain coverage from group health plans subject to the Employer Retirement
         Income Security Act of 1974 (ERISA); and allowing employers to deduct the costs of
         health insurance premiums from the noncustodial parents’ income.

         The Personal Responsibility and Work Opportunity Reconciliation Act of 1996
         (PRWORA), P.L. 104-193, requires that all child support orders enforced under the Act
         specifically include a provision for health care coverage. Child support agency staff carry
         out the orders by determining employment of the noncustodial parent and insurance
         availability for dependent coverage. If the noncustodial parent changes jobs and the new



Medical Insurance Payments for CSE                   7                                  OEI-07-97-00500
         employer provides health care coverage, the State sends notice of required coverage to the
         new employer. This will require them to enroll the child(ren) in its group health plan.

         More recently, Congress followed PRWORA with the Child Support Performance and
         Incentive Act of 1998, which stipulated that the Secretary, in consultation with State Child
         Support Directors, develop a measure based on the effectiveness of States in establishing
         and enforcing medical support obligations and to make recommendations for
         incorporating the measure, in a revenue neutral manner, into the current incentive payment
         system established by section 458A of the Social Security Act, which is based on cash
         support collections.

         The Child Support Performance and Incentive Act of 1998 also required the Secretaries of
         HHS and Department of Labor to jointly establish a Medical Child Support Working
         Group, and to develop and promulgate by regulation a National Medical Support Notice.
         Such Notice will make it possible to readily enforce enrollment of children in ERISA
         medical insurance plans without obtaining a new qualified medical child support order.
         This will permit more effective enforcement of OBRA health care coverage provisions in
         compliance with the child support order.

Previous OIG Reports

         A 1987 Office of Inspector General report entitled “Child Support Enforcement/Absent
         Parent Medical Liability”1 revealed that 60 percent of the noncustodial parents in the
         sampled cases had dependent health insurance available through their employers and that
         Medicaid would have saved almost $34 million nationally if this insurance had been used
         to pay for their dependents medical care. Also, a second report, released in 1989,2
         showed that third-party liability health insurance coverage was available to dependent
         children through noncustodial parents’ employers in 48 percent of the sampled child
         support cases. The projected potential savings to Medicaid in this study were more than
         $32 million. The study also detected that State child support agencies were not routinely
         collecting health insurance information.

METHODOLOGY
         This report is a follow-up to the two prior studies. For comparison purposes, we chose to
         conduct this national inspection in a manner similar to the previous inspections except for
         the selection of the sample States. We examined nine States in all three studies, reviewing
         samples of child support court orders for a 3-month period and analyzing them for


         1
             Child Support Enforcement/Absent Parent Liability, Office of Inspector General, HHS,
             September 1987.

         2
          Coordination of Third-Party Liability Information Between Child Support Enforcement
         and Medicaid, Office of Inspector General, HHS, December 1989.


Medical Insurance Payments for CSE                 8                                OEI-07-97-00500
         covered medical insurance. We also determined the accuracy of Medicaid payments for
         our sample. In the two prior studies, we selected the nine States based on a probability
         proportional to size using a two-stage sampling design. In this study, we selected the nine
         States using a stratified-cluster design, which allows us to project our results nationally.
         All the States were divided into three strata to produce a broader mix of States than those
         in the previous studies. The three strata are:

            <	     Strata 1 - includes nine States which various child support and Medicaid
                   representatives recommended for review during our preliminary research. They
                   suggested these States because of their effective detection efforts or innovative
                   processes.

            <	     Strata 2 - includes six States considered “large States” (based on Fiscal Year
                   1995 Aid to Families with Dependent Children and Foster Care average caseload
                   greater than 240,000) but not included in Strata one.

            <	     Strata 3 - includes the remaining 33 continental States and the District of
                   Columbia.

         We randomly selected nine States for this study, five from Strata 1, two from 

         Strata 2, and two from Strata 3. The nine States are: Strata 1 - Massachusetts,

         Minnesota, Texas, Washington, Wisconsin; Strata 2 - Michigan, North Carolina; and

         Strata 3 - Oklahoma and Vermont.


         We contacted the child support agency in each of the sampled States and requested a

         listing of all new or modified court or administrative child support orders established

         during the period July through September 1997 for dependent children entitled under the

         Temporary Assistance to Needy Families (TANF) program. In addition, we asked them to

         1) check the listing against the support payments they have received and to only include
         cases where at least one support payment had been made during our review period, and 2)
         that the child(ren) was Medicaid eligible. Once we received the lists of cases from each
         State child support agency, we randomly selected 40 cases for review from each State.
         These 360 cases constituted the total number of cases included in our study; however,
         many of these represented multiple children. We considered all children in carrying out
         the study. We determined later in the study that 21 cases were not Medicaid-eligible and
         one could not be located, leaving us with 338 cases in our sample.

         We requested the States to send us a copy of the court order or administrative order for
         each of the selected cases. We reviewed these orders to determine whether or not they
         included a medical support requirement. In addition, we checked with each State’s
         Medicaid agency to see if their claims history records showed any third-party medical
         insurance information on any of the sampled cases. Following receipt and review of the
         child support orders, we visited each of the nine States to review the actual child support
         case files and to interview State Child Support Directors, local child support caseworkers
         and supervisors, Medicaid Directors and Recovery Unit personnel, local TANF income
         maintenance staff, and, as necessary, State insurance commissioners, child support
         attorneys and judges or court administrators. Through our onsite review of the CSE case


Medical Insurance Payments for CSE                   9                                 OEI-07-97-00500
         files and contacts with noncustodial parents’ employers and insurance companies, we
         determined if employer group health insurance was available to the noncustodial parents
         for coverage of their dependent children. We identified three cases where health insurance
         was available to the noncustodial parents, although the child support order did not include
         a provision for medical support.

         We examined Medicaid payment histories for the dependent children named in the court
         orders to determine whether the State Medicaid agency was adequately receiving and
         processing information when medical support was ordered. We also looked to see if
         group health insurance existed and if the dependent(s) were enrolled. In such cases, if
         Medicaid had made payments for medical care, we determined the third-party’s liability
         against Medicaid expenditures to determine the amount of potential savings. Based upon
         the results of our sample review, estimates have been weighted according to the sample
         design and we projected national savings to the Medicaid program. See Appendix D for a
         summary of confidence intervals pertinent to report data.

         This inspection was conducted in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.




Medical Insurance Payments for CSE               10                                OEI-07-97-00500
                                     FINDINGS

         Over the past several years, numerous changes have been made to the regulations
         governing the identification and enforcement of medical support as it relates to the child
         support court order. These changes include such things as requiring child support
         agencies to collect medical support information, including medical insurance coverage in
         all child support orders, and ensuring that the noncustodial parent obtains health insurance
         if available at a reasonable cost. Enforcement mechanisms include the child support
         agency notifying the employer to enroll the child in the health care plan, and the
         subsequent transfer of medical coverage information from child support agencies to State
         Medicaid agencies. Our study indicates that while the State child support agencies have
         made strides toward progress in these areas, the need for improvement still exists.

Considerable progress has been made in the identification
and enforcement of medical support
         We estimated in our study that 93 percent of the child support cases included a provision
         requiring that medical coverage be provided for the dependent child(ren). This compares
         to 24 percent in our previous study. Much of this improvement is because these States
         generally use a uniform support order form that includes the required medical support
         provision. This is considered an important tool by the child support staff and court
         personnel. Appendix A shows unweighted sample data by State.

         Since our last study, we also determined that potential savings dropped dramatically. Ten
         years ago, we identified that 48 percent of the child support cases had health insurance
         coverage available to dependent children through noncustodial parents’ employers which
         was not identified by Child Support Enforcement or Medicaid. The projected potential
         savings to the Medicaid program for these cases were more than $32 million. Our current
         study identified 30 percent of the child support cases had health insurance coverage
         available to the noncustodial parent. Nationally, States spent an annual projected
         $5.2 million in fee-for-service and managed care payments on behalf of children where
         other insurance is available but they were not enrolled. This improvement demonstrates
         that Child Support Enforcement has progressed in the identification and enforcement of
         medical support for child support children.

         Of the $5.2 million, just under $3 million was for children for whom Medicaid made
         payments under a fee-for-service arrangement.3 The additional $2.3 million was for


         3
           See Appendix C for a summary of our calculation of potential savings where we
          identified insurance available to dependent children and Appendix D for the projected
         potential savings.

Medical Insurance Payments for CSE                11                                OEI-07-97-00500
         capitation payments made for children enrolled in Medicaid under a managed care
         arrangement. While we are aware that States are responsible for payment of Medicaid
         covered services that are not included in the contracted benefit package with the managed
         care plan, we determined that 7 of the 9 sampled States enroll Medicaid-eligible children in
         managed care and, and for the most part, pay the monthly premiums. To determine the
         extent that managed care premiums were being paid when medical insurance was available
         for the children, we looked at three factors of their insurance coverage: the noncustodial
         parent had health insurance available to him/her; the children were not enrolled for
         coverage in this insurance; and the children were covered by the State in a managed care
         plan for which premiums were being paid. Considering these factors for the 7 States, we
         estimated that 43 percent of the child support cases had beneficiaries enrolled in a
         managed care plan with Medicaid paying premiums projected to exceed $2.3 million.

However, weaknesses still exist in the detection of employer
health insurance availability and enrolling dependents
             We identified 247 cases where child support agencies had noncustodial parent employer
             information in the file. In 126 of these cases, the child support agency did not pursue
             health insurance availability with these employers. We contacted the employers in
             115 of these cases and determined that health insurance was available to the noncustodial
             parent through their employer in 36 percent of these cases. In developing our contacts
             we inquired as to the availability of health insurance and whether or not the dependent
             children were included on the policy. See Appendix B for unweighted sample data by
             State.

             Although State child support staff indicated that they make an initial attempt to gather
             employment and health insurance information when an individual applies for child support
             services, child support staff make only limited efforts to pursue medical support after this
             because they believe their primary efforts should be spent in retrieving cash support
             payments. A major justification for this approach is that the Federal match is greater for
             collection of these cash payments than pursuit of medical support. However, as noted in
             the background section of this report, the Child Support Performance and Incentive Act
             of 1998 has addressed the issue by calling for a performance measure based on the
             effectiveness of States enforcing medical support. It also deals with how this measure
             could be made part of the existing incentive payment system established by section 458A
             of the Social Security Act which is based on cash support collections.

             Hopefully, with the development and the States’ implementation of the National Medical
             Support Notice (NMSN), child support agencies and employers should find the process
             of enforcing medical support greatly facilitated.4 The NMSN must comply with the
             requirements of section 609(a)(3) and (4) of ERISA, which means it will be deemed



         4
             Required as part of the provisions of the “Child Support Performance and Incentive Act
             of 1998.”

Medical Insurance Payments for CSE                   12                                 OEI-07-97-00500
          to be a “qualified medical child support order.” In addition, the NMSN must include a
          severable employer withholding notice informing the employer of: (1) the requirement to
          withhold the employee’s contributions due under any employer-related health plan; (2)
          the duration of the withholding requirement; (3) the applicability of limitations on any
          such withholding under title III of the Consumer Credit Protection Act; (4) the
          applicability of any prioritization required under State law between cash support and
          medical support amounts to be withheld if the funds available are insufficient for full
          withholding of both; and (5) the name and telephone number of the appropriate unit or
          division to contact at the State child support agency regarding the NMSN.

Managed care premiums present a new challenge in the
enforcement of medical support for child support children
         The noncustodial parent’s responsibility for the children’s medical care is established
         through the court requirement to provide medical insurance coverage unless it is
         financially unreasonable. This is supported further by the requirement that State child
         support agencies enforce such coverage by seeking out employment information and
         insurance entitlement. Since our previous studies when Medicaid reimbursed for medical
         care with fee-for-service payments, managed care has become a major means of medical
         care coverage for children who are Medicaid-eligible. With the exception of those
         services not covered by the managed care program, there would be limited fee-for-service
         claims payment liability by the Medicaid program.

         To further quantify the full impact of this evolution, we identified all children in our study
         enrolled in managed care plans for whom Medicaid paid premiums. We found that
         Medicaid agencies were paying managed care premiums in 140 cases and these payments
         projected to more than $10 million. In fact, as noted in the prior finding, Medicaid
         agencies provided $2.3 of this $10 million in premiums for managed care coverage even
         when insurance was available from the noncustodial parent’s employer.

         It might be appropriate for States to make even these premium payments when we
         consider the difficulty that States could have in coordinating benefits under their managed
         care programs with other insurance available to the noncustodial parent.

         It was beyond the scope of this study to determine the processes needed to collect the
         managed care premiums from the noncustodial parents who do not enroll their children in
         the employer’s insurance plan or for whom insurance is not available on the market at a
         reasonable cost. We understand that there are various types of contracts established
         between State Medicaid agencies and the different managed care organizations. State
         practices may include disenrolling the children from the managed care plan when private
         insurance is available, or keeping the children enrolled in Medicaid managed care
         regardless of the existence of private insurance, while reducing the premium to account
         for possible third party coverage. We believe to fully address these issues, additional
         study is required and joint consideration of the various contingencies that exist from
         establishing the support amount to collection of the premiums.


Medical Insurance Payments for CSE                 13                                 OEI-07-97-00500
                          RECOMMENDATIONS

         Our review indicates a high level of medical support provision in court orders and an
         increase in medical support compared to prior studies, but there still are weaknesses in the
         detection of available health insurance and its enforcement. While we are aware of the
         difficulties in following the population of noncustodial parents, some of whom may
         frequently move from job to job, we believe that increased efforts toward compliance of
         the court order and detection of health insurance can result in substantial savings
         nationally to the Medicaid program. We offer the following recommendations:

The Administration for Children and Families should ensure
that State child support agencies comply with current
regulations requiring them to fully enforce medical support
         Whenever child support identifies cases where a high potential exists for obtaining medical
         support, such as noncustodial parents’ employment information, they should be persistent
         in following through to determine if health insurance is available to the noncustodial
         parent and to his/her dependents. This should include cases where the child is enrolled in
         Medicaid managed care programs or could be enrolled in an employer based managed care
         program. However, these situations may require new approaches discussed in the next
         recommendation.

The Administration for Children and Families, in conjunction
with the Health Care Financing Administration, should
examine alternatives to recover the cost of managed care
premiums from the noncustodial parents
         The Administration for Children and Families (ACF), in conjunction with the Health Care
         Financing Administration (HCFA), should examine alternatives to address the loss of
         State/Federal funds for children enrolled in Medicaid managed care. We realize there are
         various State practices regarding coordination of benefits whenever children are enrolled
         in a Medicaid managed care plan. Depending on the unique State practices, they could
         consider the option of requiring the noncustodial parent to enroll the child in private
         coverage or pay toward the Medicaid managed care coverage. The following could be
         considered.

                   <	       If insurance is available at a reasonable cost to a noncustodial parent but
                            he/she prefers not to enroll in it or to enroll himself/herself only and not the
                            children, he/she could have the option of paying the State Medicaid
                            managed care premium.

Medical Insurance Payments for CSE                    14                                  OEI-07-97-00500
                   <	       If insurance is not available at a reasonable cost to a noncustodial parent
                            and there is no employer based health plan, he/she could have the option of
                            paying the State Medicaid managed care premium.

                   <	       If insurance is available at a reasonable cost to a noncustodial parent and
                            the parent and child are enrolled in it, the Medicaid managed care
                            coverage, unless discontinued, could be assessed as a secondary payer to
                            the noncustodial parent’s insurance.

         We realize that the actual implementation and administration of such a policy would entail
         addressing many factors such as cost-efficiency, identification and enforcement, billing and
         collection of the managed care premium, and need for legislative changes.

AGENCY COMMENTS

         In their comments, the Administration for Children and Families expressed their
         commitment to working with the Health Care Financing Administration and the States to
         improve access to medical coverage for children. In addition, they described various
         efforts and initiatives being undertaken that will further strengthen medical child support.

         The ACF also noted that the Medical Child Support Working Group will be issuing
         recommendations to improve medical support and coordination between child support
         agencies and Medicaid. We are aware of the working group’s upcoming report to
         Congress and have provided information to them on our prior and present efforts on these
         topics.

         The ACF had technical comments regarding the sampling and weighting schemes used in
         the study. We have revised the report to address these comments. The full text of ACF’s
         comments are included in Appendix E.

         While the recommendations in the draft report were not directed to HCFA, they did
         provide comments. The HCFA indicated that they will continue to work with ACF to
         assure every effort is made to identify parents who can provide or contribute to the
         coverage of health insurance for their children and to see that Medicaid dollars are spent
         appropriately.

         Where appropriate, we also made revisions to the report to address HCFA’s technical
         comments. The full text of HCFA’s comments are included in Appendix E.




Medical Insurance Payments for CSE                   15                                 OEI-07-97-00500
                                                                             APPENDIX A




              CHILD SUPPORT ORDERS WITH A PROVISION
                      FOR MEDICAL SUPPORT 1

                                                             Don’t           Cases
 State                   Yes         %      No   %           Know    %     Dropped 2           %
 Massachusetts            28         70.0   10   25.0          2     5.0       0                0
 Michigan                 34         85.0   0     0            0     0         6              15.0
 Minnesota                20         50.0   18   45.0          2     5.0       0                0
 North Carolina           38         95.0   2    5.0           0     0         0                0
 Oklahoma                 37         92.5   2    5.0           0     0         1              2.5
 Texas                    25         62.5   0     0            0     0        15              37.5
 Vermont                  35         87.5   5    12.5          0     0         0                0
 Washington               40         100    0     0            0     0         0                0
 Wisconsin                37         92.5   2    5.0           1     2.5       0                0
 1
     Unweighted sample data only.
 2
     Cases dropped were non-Medicaid or not located.




Medical Insurance Payments for CSE                      16                             OEI-07-97-00500
                                                                      APPENDIX B



                         HEALTH INSURANCE AVAILABILITY

  Cases where OIG Determined Health Insurance is Available
              Through Contacting Employers 1

                                                 CSE         Employer in File,        OIG
                                     CSE         Didn’t      CSE Didn’t Pursue,     Found
                        Employer     Pursued     Pursue      OIG Did Pursue        Insurance
 State                  in File      Insurance   Insurance   Insurance             Available
 Massachusetts               30         11             19            18                 8
 Michigan                    16         10             6             6                  3
 Minnesota                   35         12             23            22                 6
 North Carolina              29         18             11            9                  3
 Oklahoma                    29         15             14            12                 6
 Texas                       15          8              7            6                  2
 Vermont                     31         19             12            8                  1
 Washington                  24         21              3            3                  2
 Wisconsin                   38          7             31            31                 13
 Totals                     247         121            126          115                 44
 1
     Unweighted sample data only.




Medical Insurance Payments for CSE                17                          OEI-07-97-00500
                                                                       APPENDIX C



                          MEDICAID PAYMENTS MADE
                       WHEN HEALTH INSURANCE EXISTED
                       BUT DEPENDENTS NOT ENROLLED 1

                                                                                    Fee-for-
                                                                                    Service
                                                                      Number       Payments
                                     Number                            With           for
                         Total         of      Total      Number     Dependents   Dependents
                        Number       Sample   Dollars       with        Not           Not
 State                  of Cases      Cases    Paid      Insurance    Enrolled     Enrolled
 Massachusetts             1,714       40     $33,576       12           6            $891.76
 Michigan                  2,666       34      $6,669       10           6            $481.37

 Minnesota                 1,185       40     $20,622       11           7            $251.16
 North Carolina            1,539       40     $23,672       17           10         $2,029.26

 Oklahoma                    295       39      $9,944       11           6              $33.69

 Texas                    15,128       25      $5,675        6           1               $0
 Vermont                     363       40     $12,824       15           7              $31.92
 Washington                  994       40     $10,311       17           7               $0
 Wisconsin                   599       40     $12,388       16           8              $65.77
 Total                    24,483      338     $135,681      115          58         $3,784.93
 1
     Unweighted sample data only




Medical Insurance Payments for CSE               18                           OEI-07-97-00500
                                                                         APPENDIX D



                                     WEIGHTED ESTIMATES


                                                              Weighted        90% Confidence
 Data                                                         Estimate        Interval
 Sample cases reviewed (338)
           Medical Support included in order (294)                93%              +/- 4.7%
           Insurance available to noncustodial parent (115)       30%              +/-5.6%
           Medicaid enrolled dependents in managed care
           plan (140)                                             23%              +/-12.2%
 Insurance available to noncustodial parent (115)
           Dependents enrolled in insurance plan (57)             57%              +/- 11.2%
           Dependents not enrolled in insurance plan (58)         43%              +/- 11.2%
                    Dependents in managed care plan (30)          43%              +/- 15.3%
 Employer information in file, but state did not
 pursue. OIG did pursue (115)
           OIG determined insurance available (44)                36%              +/-11.0%
 Total dollars paid for premiums to managed care
 plans                                                        $10,082,312       +/- $2,643,508
 Managed Care Premium payments where insurance
 exists and children not enrolled                              $2,320,669       +/-$1,199,244
 Fee-for-Service Dollars paid by States for children
 not enrolled, but insurance is available                      $2,923,944       +/- $2,172,028
 Total dollars paid by the State on behalf of children
 where other insurance is available, but not enrolled          $5,244,613       +/- $3,271,272

Weighting of the sample was performed using standard statistical formulas for a stratified-cluster
sample; therefore, the weight was based on both the probability of picking the State and the
probability of choosing the case within the selected State. There were a total of nine weights used
depending on the strata and the number of cases for that State.



Medical Insurance Payments for CSE               19                               OEI-07-97-00500
                                                        APPENDIX E



                                     AGENCY COMMENTS





Medical Insurance Payments for CSE          20              OEI-07-97-00500
Medical Insurance Payments for CSE   21   OEI-07-97-00500
Medical Insurance Payments for CSE   22   OEI-07-97-00500
Medical Insurance Payments for CSE   23   OEI-07-97-00500
Medical Insurance Payments for CSE   24   OEI-07-97-00500
Medical Insurance Payments for CSE   25   OEI-07-97-00500
Medical Insurance Payments for CSE   26   OEI-07-97-00500
Medical Insurance Payments for CSE   27   OEI-07-97-00500
Medical Insurance Payments for CSE   28   OEI-07-97-00500
